December 3, 2013

What We Did                                         The lack of a mission analysis, Joint Mission Essential Task Lists, disparate
                                                    planning efforts, and mission execution resulted in non-uniform standards,
Our assessment's overall objective was to
                                                    task conditions, and measures; no means exist to determine if the level of
examine the Department of Defense's ability
                                                    the RTF readiness is effective or timely.
to provide, train, organize, and equip
Response Task Forces (RTF) to support
                                                    Recommendations
necessary responses to a U.S. nuclear
weapon     accident     or   incident   in   the    We recommend that Commander, U.S. Northern Command, coordinate
continental United States. The U.S. Nuclear         developing RTF Mission Analysis, Joint Mission Essential Task Lists,
Command and           Control System    (NCCS)      Universal Joint Tasks change requests (new and modification to existing),
Support Staff (NSS) recommended this                associated measures and conditions, and performance standards.           This
3. ssessment topic.                                 effort should, at a minimum, include subject-matter experts from the
                                                    Services, the Defense Threat Reduction Agency, and Joint Staff J3 and   J7.   A
What We Found                                       flag or general officer should coordinate and have this process tracked, until
                                                    completion, by the Nuclear Command and Control System Committee of
DoD officials have not completed actions
                                                    Principals Nuclear Weapon Accident/Incident Response Subcommittee.
required to fully carry out DoD guidance
                                                    These standards should include criteria to indicate the expected
that it issued in 2002. Specifically, a mission
                                                    performance of a given task.
3.nalysis for the RTF was never conducted,
md Joint Mission Task Lists were never
                                                    We recommend that the Office of the Deputy Assistant Secretary of Defense
created. Disparate planning efforts caused
                                                    for Nuclear Matters update guidance to reflect the Geographic Combatant
geographic coverage gaps and a lack of
                                                    Commander's responsibility in the mission analysis and Joint Mission
sourced airlift plans to deploy an RTF.
                                                    Essential Task process.
Moreover, some organizations are executing
the RTF mission based on draft guidance.            We recommend that the Office of the Deputy Assistant Secretary of Defense
Finally, mechanisms do not exist to report          for Nuclear Matters give priority to publishing DoD Manual 3150.08 and
RTF readiness to the Chairman of the Joint          provide an estimated publication date.
Chief of Staff,       and    Commander,      U.S.
Northern Command, as required.            These     We recommend that the Headquarters Air Force and the Navy develop
critical pieces are still absent due to the lack    respective processes to certify RTF commanders and its staffs as mission-
of priority that tasked agencies give to the        ready to the Combatant Command, in accordance with Chairman Joint Chiefs
RTF mission.                                        of Staff policies.



Visit us on the web at www.dodig.mil


                                                      DoDIG-2014-19
                                                            iii
Recommendations Continued
We r ecommend that the Joint Staff and the U.S. Northern Command immediately identify a
reporting methodology and format for the RTF Commanders for Air Force Global Strike
Command and Navy Regions Southeast and Northwest until such time as the Joint Mission
Essential Task Lists can be used to report through the Defense Readiness Reporting System, as
prescribed.

We recommend that the U.S. Northern Command, Air Force Global Strike Command, and the
Joint Staff determine the appropriate method of supporting the logistical and operational
requirements to deploy the Air Force Global Strike Command Response Task Force.
Stakeholders should consider drafting an "Execute Order" addressing the necessary
requirements, capabilities, resources, and procedures.

We recommend Commander, U.S. Northern Command, in conjunction with Commander, U.S.
Pacific Command, update the appropriate concept of operations plan and operations orders to
identify clear authorities and a clear chain-of-command for nuclear weapon incidents or
accidents occurring in U.S. Northern Command's geographic area of responsibility, but currently
outside U.S. Northern Command's operational area of responsibility.

Management Comments and Our Response
Management comments we received were responsive to the recommendations.                   The
Commander, U.S. Pacific Command, did not respond to the draft report issued on August 2, 2013.
We request that the Commander, U.S. Pacific Command, provide comments on the final report by
January 10,2014.

As a result of management comments and additional assessment work, we request that the
Commander, U.S. Strategic Command, and Commander, U.S. Transportation Command, provide
comments on the final report by January 10, 2014.

As a result of management comments and additional assessment work, we request Commander,
U.S. Northern Command, provide additional comments on the final report by January 10, 2014.
Please see the recommendations table on the following page.




                                      DoDIG-2014-19
                                              iv
